APPENDIX A

Case l:19-cv-00780-CMH-MSN Document 26 Filed 08/24/20 Page 1 of 1 PagelD# 1746

FILED: August 24, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2305
(l:19-cv-00780-CMH-MSN)

In re: PHILIP JAY FETNER
Debtor

PHILIP JAY FETNER
Debtor - Appellant
v.
HOTEL STREET CAPITAL, L.L.C.; ROSZEL & BANG-JENSEN, CO-EXECUTORS; UNITED
STATES OF AMERICA; WILMINGTON SAVINGS FUND SOCIETY, e/o Shellpoint Mortgage
Servicing
Creditors - Appellees
and
JOHN P. FITZGERALD, III
Trustee - Appellee

JUDGMENT

In accordance with the decision of this court, this appeal is dismissed.
This judgment shall take effect upon issuance of th is court's mandate in accordance with Fed.
R. App. P. 41.
/s/ PATRICIA S- CONNOR. CLERK

034135

3410903^69037

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2305

In re: PHILIP JAY FETNER,
Debtor.

PHILIP J AY FETNER,
Debtor - Appellant,
v.
HOTEL STREET CAPITAL, L.L.C.; ROSZEL & BANG-JENSEN, COEXECUTORS; UNITED STATES OF AMERICA; WILMINGTON SAVINGS
FUND SOCIETY, c/o Shellpoint Mortgage Servicing,
Creditors- Appellees,
and
JOHN P. FITZGERALD, III,
Trustee - Appellee,

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Claude M. Hilton, Senior District Judge. (1:19-cv-00780-CMH-MSN)
Decided: August 24,2020

Submitted: August 20,2020

Before GREGORY, Chief Judge, WYNN, and QUATTLEBAUM, Circuit Judges.

2a

Dismissed by unpublished per curiam opinion.
Beth Ann Levene, UNITEDnpmrP
STATES
Philip Jay Fetner, Appellant Pro Se.
nv
DEPARTMENT OF JUSTICE, Washington, D.C.; Hugh Michael Bernstein, OFFICL Ot
THE UNITED STATES TRUSTEE, Baltimore, Maryland; William Davis Ashwell,
MARK B WILLIAMS & ASSOCIATES, PLC, Warrenton, Virginia; Andrew Justin
Narod, BRADLEY ARANT BOULT CUMMINGS, LLP, Washington, D.C., for
Appellees.
Unpublished opinions are not binding precedent in this circuit.

2
3a

PER CURIAM:
Phillip Jay Fetner seeks to appeal the district court's orders dismissing his
bankruptcy appeal for lack of jurisdiction and denying reconsideration. This court may
exercise jurisdiction only over final orders, 28 U.S.C. § 1291, and certain interlocutory and
collateral orders, 28 U.S.C. § 1292; Fed. R. Civ. P. 54(b); Cohen v. Beneficial Indus. Loan
Corp., 337 U.S. 541, 545-46 (1949). The order Fetner seeks to appeal is neither a final
order nor an appealable interlocutory or collateral order. Under 28 U.S.C. § 158(d)(1), we
have jurisdiction over a bankruptcy appeal when both the bankruptcy court and the district
court enter final orders. Here, the bankruptcy court’s order was interlocutory, see In re
Wallace & Gale Co., 72 F.3d 21, 25 (4th Cir. 1995), as well as the district court’s order.
See In re Kassover, 343 F.3d 91, 94 (2d Cir. 2003) (“[TJhere is no jurisdictional provision
authorizing a court of appeals to hear an appeal from a district court’s decision regarding a
bankruptcy court’s interlocutory order, whether it denies leave to appeal or renders a
decision on the merits.”). Accordingly, we dismiss the appeal for lack of jurisdiction.* We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
DISMISSED

* We note that even if we had jurisdiction over this appeal, it would be moot because
the bankruptcy proceeding was converted to, a Chapter 7 liquidation case, and parties do
not file disclosure statements in Chapter 7 proceedings. See In re Stadium Mgmt. Corp.,
895 F.2d 845, 847 (1st Cir. 1990) (absent a stay of bankruptcy court transaction or
proceeding, appellate court must dismiss an appeal as moot where there is no remedy to
fashion).
3
4a

FILED: September 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2305
(1:19-c v-00780-CMH-MSN)
In re: PHILIP JAY FETNER
Debtor

PHILIP JAY FETNER
Debtor - Appellant
v.
HOTEL STREET CAPITAL, L.L.C.; ROSZEL & BANG-JENSEN, CO­
EXECUTORS; UNITED STATES OF AMERICA; WILMINGTON SAVINGS
FUND SOCIETY, c/o Shellpoint Mortgage Servicing
Creditors - Appellees
and
JOHN P. FITZGERALD, III
Trustee - Appellee

STAY OF MANDATE UNDER
FED. R. APP. P. 41(d)(1)

5a

Under Fed. R. App. P. 41(d)(1), the timely filing of a petition for rehearing
or rehearing en banc or the timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for rehearing or rehearing en banc
or motion to stay. In accordance with Rule 41(d)(1), the mandate is stayed pending
further order of this court.
/s/Patricia S. Connor. Clerk

6a

Gase l:19-cv-00780»CMH-MSN Document 20 Filed 10/22/19 Page 1 of 1 PagelD# 1737

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

Alexandria Division
PHILIP JAY FETNER,
Appellant,
v.

)
)

5 Civil Action No. 1:19-cv-780

WILMINGTON SAVINGS FUND
SOCIETY, ET AL.,
Appellees.

)
)
)
)
)

ORDER
THIS MATTER comes before the Court on Plaintiff's Motion
for Reconsideration or Rehearing of this Court's September 9,
2G19 Order. The Court is of the opinion that its previous ruling
was correct for the reasons stated. Accordingly, it is hereby
ORDERED that. Appellant' s Motion is DENIED.

6 a cC

~22i

CLAUDE M. HILTON
UNITED STATES DISTRICT JUDGE
Alexandria, Virginia
October 22.‘8^2019

7a

Case l:19-cv-00780-CMH-MSN Document 16 Filed 09/09/19 Page 1 of 4 PagelD# 1717

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

Alexandria Division
PHILIP JAY FETNER,
Appellant,
v.

)
)
)
)
)

) Civil Action No. l:19-cv-78Q

WILMINGTON SAVINGS FUND
SOCIETY, ET Al.,
Appellees.

)
)
)
)
)
)
)

ORDER
THIS MATTER comes before the Court on Appellee's Motion to
Dismiss the appeal Of the Bankruptcy Court's order rejecting the
Appellant's proposed Chapter 11 disclosure statement.
On May 30, 2019, the Bankruptcy Court entered an order
rejecting Appellant's proposed disclosure statement because it
did not contain sufficiently "adequate information," as is
required by 11 U.S.C. § 1125(b). The Bankruptcy Court's May 30,
2019 order also invited Appellant to file an amended statement
by June 6, 2019, but Appellant filed the instant appeal instead.
After Appellant filed this appeal, the Bankruptcy Court granted
the Trustee's motion to convert Appellant's Chapter 11 case to a
Chapter 7 "liquidation" case.

8a

Case l:19-cv-00780-CMH-MSN Document 16 Filed 09/09/19 Page 2 of 4 PagelD# 1718

Appellee now moves to dismiss this appeal for lack of
jurisdiction. Specifically, Appellee contends that the
Bankruptcy Court's order denying approval of Appellant's
proposed disclosure statement is interlocutory and that no
"compelling reason" exists to warrant this Court's review. The
Court agrees.
The Bankruptcy Court order rejecting Appellant's proposed
disclosure statement but providing the opportunity to submit an
amended statement was interlocutory. See Legal Rep, for Future
Claimants v. Aetna Cas. & Sur, Co, 72 F.3d 21, 25 (4th Cir.
1995)

("the bankruptcy court's order denying approval of the

[Chapter 11] disclosure statement was interlocutory."). As a
result, under 28 U.S.C. § 158(a), the "decision whether to grant
leave to appeal from a bankruptcy court's interlocutory order is
committed to the district court's discretion." Legal Rep, for
Future Claimants, 72 F. 3d at 25.1 Although § 185(a) does not
proscribe any particular standard of review when considering an
interlocutory appeal, 28 U.S.C. §158(c)(2) states that a
reviewing court shall take bankruptcy appeals "in the same
manner as appeals in civil proceedings generally taken to the
courts of appeals from the district courts. . . [.]" Thus,
courts reviewing appeals of interlocutory bankruptcy court
1 Although the Appellant has not sought leave to file an interlocutory appeal,
the Court may consider the notice of appeal as a request for leave to appeal.
Fed. R. Bankr. P. 8004(d).

9a

Case l:19-cv-Q0780-CMH-MSN Document 16 Filed 09/09/19 Page 3 of 4 PagelD# 1719

orders regularly utilize the factors set forth in 28 O.S.C. §
1292(b). See First Owners/ Ass'n of Forty Six Hundred v. Gordon
Props., LLC, 270 B.R. 364, 371 (E.D. Va. 2012), That is, a court
considering whether to take appeal of an interlocutory
bankruptcy order will evaluate: {1) whether the order involves a
controlling question of law; (2) as to which there is
substantial ground for difference of opinion; and (3) whether an
immediate appeal from the order would materially advance the
ultimate termination of the litigation. First Owners' Ass'n of
Forty Six Hundred v. Gordon Props
Va. 2012)

■ /

LLC, 470 B.R. 364, 371 (E.D.

(applying standard in 28 U.S.C. § 1292(b) to consider

appeal of interlocutory bankruptcy order).
There is no controlling question of law at issue in this
appeal. Although 11 U.S.C. § 1125(a) statutorily defines
"adequate information" as "information of a kind, and in
sufficient detail . . . that would enable a hypothetical
reasonable investor typical of holders of claims or interests of
the relevant class to make an informed judgment about the plan,"
the determination of whether the statement contains such
information is primarily a factual one. Here, the Bankruptcy
Court found that Appellant7 s proposed statement did not contain
sufficiently adequate information regarding payment of certain
administrative tax liabilities or the Appellant's 2018 tax
return, among other reasons. This appeal would also not

10a

Case 1.19-CV-00780-CMH-MSN Document 16 Filed 09/09/19 Page 4 of 4 PagelD# 1720

materially advance the litigation. Appellant's bankruptcy case
has been converted to a Chapter 7 case, and thus, whether
Appellant's first proposed disclosure statement contained
"adequate information" is no longer relevant. While the Court is
mindful that Appellant has filed a separate appeal of the
Bankruptcy Court's order converting the matter to a Chapter 7
case, even if that appeal were successful and the matter was
converted back to a Chapter 11 case, Appellant would
subsequently be allowed to submit an amended disclosure
statement. For the aforementioned reasons, it is hereby
ORDERED that the Appellee's Motion to Dismiss is GRANTED
and the case is DISMISSED for lack of jurisdiction.

CLAUDE M. HILTON
UNITED STATES DISTRICT JUDGE
Alexandria, Virginia
September y- , 2019

11a

Case 17-13036-KHK Doc 213 Filed 05/30/19 Entered 05/30/19 15:33:15 Desc Main
Document

Page 1 of 3

UNITED STATES BANKRUPTCY COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
In re:
Case No. 17-13036
(Chapter 11)

Philip Jay Fetner,
Debtor.

ORDER DENYING DISCLOSURE STATEMENT
This case was before the Court on May 28, 2019 for a hearing on the Debtor’s Disclosure
Statement filed on April 30, 2019. (Docket No. 197). John Donelan, the Debtor’s counsel and the
Debtor, Philip Jay Fetner, both appeared for the hearing. Joseph A. Guzinski appeared on behalf
of the Office of the United States Trustee. Robert K. Coulter filed an Objection to the Debtor’s
Disclosure Statement and appeared on behalf of the United States of America. (Docket No. 206).
Andrew Narod filed an Objection to the Disclosure Statement on behalf of Wilmington Savings
Fund Society and appeared for the hearing. (Docket No. 208). Robert M. Marino filed an Objection
to the Disclosure Statement and appeared on behalf of Hotel Street Capital, LLC. (Docket No.
209). Upon review of the pleadings, testimony of the Debtor, arguments of counsel and for the
reasons stated on the record, this Court finds as follows:
WHEREAS, the underlying Plan fails to comply with 11 U.S.C.§ 1129(b)(2)(A) for
purposes of treatment of the claim of Wilmington Savings Fund Society, FSB because it does not
provide that Wilmington retains its lien and receive cash payments equal to the value of its claim
and because the Plan proposes to modify the terms of a loan secured by the Debtor’s principal
residence:
WHEREAS, the underlying Plan fails to comply with 11 U.S.C. §1123(b)(5) for purposes
of treatment of the claims of Wilmington Savings Fund Society, FSB and Hotel Street Capital,

12a

Case 17-13036-KHK Doc 213 Filed 05/30/19 Entered 05/30/19 15:33:15
Document

Page 2 of 3

Desc Main

LLC, because it proposes to modify the terms of loans secured by the Debtor’s principal residence;
WHEREAS, the Disclosure Statement fails to comply with 11 U.S.C, §1129(b)(2)(A)(i)(I)
for purposes of the treatment of tax obligations to the Internal Revenue Service because it provides
for an improper release of a federal tax lien;
WHEREAS, the Disclosure Statement fails to provide for the payment of administrative
tax liabilities on the effective date, in full, and for the filing of the Debtor’s 2018 federal income
tax return before confirmation in accordance with 11 U.S.C. §1129(a)(9)(A);
WHEREAS, the Debtor bears the burden of proving feasibility and has failed to provide
adequate financial information to support the Debtor’s ability to generate income necessary to fund
the Plan;
WHEREAS, the Disclosure Statement fails to satisfy the adequate information standard
pursuant to 11 U.S.C. § 1125 because the Plan cannot be confirmed pursuant tol 1 U.SC. § 1129(a)
due to incomplete and speculative financial information;
It is ORDERED that:
1. The Debtor’s motion to approve the Disclosure Statement (Docket No. 197) is
DENIED.
2. The Debtor may file an amended Disclosure Statement and Plan on or before June 6,
2019. Approval of the amended Disclosure Statement and Plan must be set for a
hearing on June 11,2019 at 11:00AM.
3. The Clerk shall mail a copy of this Order, or provide electronic notice of its entry, to
the parties below.
Date: May 30 2019

/s/ Klinette Kindred
Klinette H. Kindred
United States Bankruptcy Judge
Entered on Docket: May 30, 2019

13a

Case 17-13036-KHK

Doc 213

Filed 05/30/19 Entered 05/30/19 15:33:15
Document Page 3 of 3

Copy electronically to:

Robert K. Coulter
John T. Donelan
Joseph A. Guzinski
Robert M. Marino
Andrew Justin Narod

14a

Desc Main

FILED: November 2, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2305
(1:19-CV-00780-CMH-MSN)
In re: PHILIP JAY FETNER
Debtor

PHILIP JAY FETNER
Debtor - Appellant
v.
HOTEL STREET CAPITAL, L.L.C.; ROSZEL & BANG-JENSEN, CO-EXECUTORS'
UNITED STATES OF AMERICA; WILMINGTON SAVINGS FUND SOCIETY c/o ’
Shellpoint Mortgage Servicing
Creditors - Appellees
and
JOHN P. FITZGERALD, III
Trustee - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge requested a
poll under Fed. R. App. P. 35. The court denies the petition for rehearing en banc.
For the Court
/s/ Patricia S. Connor. Clerk

15a

